                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL                  I
                                                   OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM                             1




Case Number: I04090031
                                                                              11          Page 1 of 1



        National Science Foundation, OIG opened this investigation based on results from a proactive
        FCTR review. The review found that the FCTR for a NSF grant' showed that all funds had been
        received and expended by the grantee2but that a final report had not been submitted. Review of
        the Grant file found that there was confusion about the change in grantee and that the NSF
        program that funded the award ended prior to the submission of the final report.
                                                                                                  I

         The Principal Investigator (PI)3on the grant was located and interviewed. The PI stated that
         when another research company bought out the original grantee, he had difficulty accessing and
         submitting reports through Fastlane. The PI added that he had an electronic copy of the final
         report and sent the electronic copy to OIG. The NSF program responsible for closing the award
         reviewed the final report and determined the report was adequate. Per our advice, the PI
         submitted the final report directly to the NSF Program and the NSF Program accepted the final
         report.

          Accordingly, this case is closed.




ISF OIG Form 2 (1 1/02)
